              OFFICE OF
              INSPECTOR GENERAL


To:            Chris Henderson
               Senior Advisor to the Secretary for Economic Recovery and Stimulus

From:          RobertA.Knox/~-r;::: -~~
               Assistant Inspector General    fo~~rr Oversight
Subject:       Recovery Oversight Advisory - Follow-up on U.S. Geological Survey (USGS)
               Indefinite-Delivery/lndefinite-Quantity (IDIQ) Contract 08ERCNOOI7, et al.
               (ROO-ROA-GSV -7001-2010-1)

       This advisory informs you of our recent findings regarding the USGS IDIQ contracts for
water monitoring equipment purchased by the USGS Hydrological Instrumentation Facility
(HIF). This review is part of our ongoing efforts to oversee and ensure the accountability of
funding appropriated to the U.S. Department of the Interior (DOl) in the American Recovery and
Reinvestment Act of2009 (Recovery Act).

        Please provide a written response to this advisory within 30 days of receipt detailing the
corrective actions USGS will implement to meet our recommendations, as well as targeted
completion dates and the title(s) of the officials(s) responsible for implementation.

        We will post this advisory on our Web site (www.doioig.gov/recovery/) and on
Recovery.gov. Information contained in this advisory may also be included in our semiannual
report to the Congress. Please do not hesitate to contact me if you have any questions.

Background and Findings

        On February 4,2010, the Recovery Oversight Office (ROO) published an advisory
(ROO-ROA-GSV-7001-201O) regarding the award of nine IDIQ contracts based upon USGS
solicitation number 07ERSSOOI7. The advisory identified that on June 13,2008, nine vendors
were awarded IDIQ contracts to fulfill 84 line item requirements for specialized components of
water monitoring equipment for the USGS HIF. No vendors bid on the same line item contracts
for the same equipment. The advisory further reflected that on May 20,2009, and June 4, 2009,
the IDIQ contracts were deemed a Recovery Act project because $14.6 million of Recovery Act
funds were obligated in six of the nine IDIQ contracts to buy additional equipment.

         Our review of the contracts addressed concerns that USGS's approach did not foster
maximum competition, which is a Recovery Act goal. The February 4,2010 advisory provided
several recommendations for USGS to address, including that sole source justifications should be
issued for these awards. We noted that if equipment specifications were unique to specific
vendors, and the circumstances fit one of the seven Federal Acquisition Regulation (FAR)
exceptions, USGS should have issued either sole source agreements or documented proper
justifications.



                               Recovery Oversight Office I Washington. DC
        On March 5, 2010, we received USGS’s response, which documented their partial non-
concurrence and complete non-concurrence to recommendations one, three, and four. Their
response indicated that the IDIQ awards sourced the HIF more strategically and reduced the
acquisition workload. USGS’s response further stated that the awards were fully competed,
multiple vendors were solicited, and vendors were not provided any preference. USGS indicated
they had not provided any preference to vendors and no company submitted competing proposals
for the 84 pieces of equipment.

        We reviewed the solicitations and awards to ascertain whether vendors may have
colluded in order to win certain awards. We found no evidence to indicate multiple vendors were
interested in bidding on the same line items. USGS initially explained that, based on market
research, they believed multiple vendors would submit proposals for the 84 line items. USGS
based that belief on the contact with vendors that had previously taken place at trade shows and
demonstrations. Only nine vendors submitted proposals, which were based on clustered,
sequential contract line item numbers (CLINs).

       We obtained information that indicated individual vendors were specifically asked by
HIF personnel to bid on only certain line items. Three of the nine vendors were randomly
contacted to determine why they only bid on specific items. Two vendors stated they were
contacted by the HIF and asked to provide price quotes on specific line items.

        We found indications that the original solicitation called for specific part numbers and/or
characteristics that could only be met by a specific vendor. The original solicitation clearly
identified 16 of 84 CLINs by their designated HIF stock number, and the specifications for
several other CLINs were compared to the vendor’s product description and found to be almost
identical.

       Finally, restrictive solicitation requirements, in conjunction with conversations with HIF
personnel, may have undermined the goal to increase competition. Our findings are based on our
review of pertinent documents and interviews conducted with program, acquisition, and industry
personnel.

Recommendations

       On July 22, 2010, our office discussed the findings of this advisory with the USGS
Procurement Chief and USGS Recovery Coordinator. USGS revised their previous response and
agreed to the following recommendations:

1.	 Prepare sole source justifications for each of the current and prospective delivery orders
    executed under the nine IDIQ awards and obtain approval from the proper authority. USGS
    will amend solicitation number 07ERSS0017 to identify the IDIQ awards as sole source
    awards.

2.	 Implement the requirements of FAR 5.705 and Section 1554 for the Recovery Act-related
    delivery orders. USGS agreed to amend the coding within the Federal Procurement Data
    System – Next Generation (FPDS-NG) to reflect the awards as sole source.


                                                                                                      2
3.	 Conduct future procurements of similar nature in compliance with Federal procurement
    policy. USGS recognizes the need for procurement training at the program office level and
    has requested that the OIG provide training.

cc: 	   Deputy Secretary, Department of the Interior
        Assistant Secretary – Policy, Management, and Budget
        Director, Office of Acquisition and Property Management
        Acting Director, Office of Financial Management
        Director, U.S. Geological Survey
        U.S. Geological Survey Audit Liaison 

        Departmental GAO/OIG Audit Liaison 

        Audit Liaison, Office of the Secretary 

        Recovery Coordinator, U.S. Geological Survey 





                                                                                                3
      Report Fraud, Waste,
      and Mismanagement
             Fraud, waste, and mismanagement in 

            government concern everyone: Office


           of Inspector General staff, Departmental


            employees, and the general public. We 

               actively solicit allegations of any


           inefficient and wasteful practices, fraud, 

                and mismanagement related to 

            Departmental or Insular Area programs 

                and operations. You can report


               allegations to us in several ways.





By Mail:            U.S. Department of the Interior
                    Office of Inspector General
                    Mail Stop 4428 MIB
                    1849 C Street, NW
                    Washington, D.C. 20240


By Phone:           24-Hour Toll Free                     800-424-5081
                    Washington Metro Area                 703-487-5435


By Fax:             703-487-5402


By Internet:        www.doioig.gov
